Audit Report



Return
    to the USDOJ/OIG Home Page




Office of Justice Programs Teleconferencing Equipment for Prosecutors and Community Education Grant Administered by the University of Kentucky Lexington, Kentucky

Report No. GR-50-04-006


May 2004
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of the Teleconferencing Equipment for Prosecutors and Community Education grant awarded by the U.S. Department of Justice, Office of Justice Programs (OJP) to the University of Kentucky, College of Law (College), located in Lexington, Kentucky. The College used the $748,350 grant award to renovate some of its classrooms and install video teleconferencing equipment. In addition to these grant funds, the College contributed matching funds of $247,225, bringing the total cost of the project to $995,575. The grant period began on July 1, 2001, and ended two years later, on June 30, 2003.
We tested the College's accounting records to determine if reimbursements claimed for costs under the grant were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grant. Of the $995,575 in total project costs expended as of June 30, 2003, we tested transactions totaling $923,760 because the College did not distinguish between costs that were reimbursed by the grant and costs that were part of the College's match. We found that the grantee was generally in compliance with grant conditions. However, we found that the College:

could not adequately support costs totaling $76,326,1


did not record nine grant-funded property items on its property records in a timely manner, and


did not accomplish one of the grant objectives.

Our results are discussed in detail in the Findings and Recommendations section of the report. Our audit objectives, scope, and methodology appear in Appendix II.


Footnotes

The Inspector General Act of 1978, as amended, contains our reporting requirements for questioned costs and funds to better use. However, not all findings are dollar-related. See Appendix I for a breakdown of our dollar-related findings and for definitions of questioned costs and funds to better use.